Case 20-1986, Document 105, 03/25/2021, 3063548, Pagel of 1

UNITEDSTATE^COURTGF-APPEALS
FOR THE
SECOND CIRCUIT

At a Stated Term of the United States Court of Appeals for the Second Circuit, held at
the Thurgood Marshall United States Courthouse, 40 Foley Square, in the City of New York, on
the 25th day of March, two thousand twenty-one,
Present:
Guido Calabresi,
Reena Raggi,
Denny Chin,
Circuit Judges
Amy R. Gurvey,
ORDER
Docket No. 20-1986

Plaintiff - Appellant,
v.
Cowan, Liebowitz and Lathman, P.C., Clear Channel
Communications, Inc., Live Nation, Inc., Instant Live Concerts,
LLC, Nexticketing, Incorporated, William Borchard, Midge
Hyman, Baila Celedonia, Christopher Jensen, Dale Head, Steve
Simon, Susan Schick,
Defendants- Appellees,
Does, 1-X Inclusive, Michael Gordon,
Defendants.

Appellant filed a motion for reconsideration and the panel that determined the motion has
considered the request.
IT IS HEREBY ORDERED, that the motion is denied.

For The Court:
Catherine O'Hagan Wolfe,
Clerk of Court

(k

Case C@@8c2O9120STlDSStW®^t tfifcUWffltt/aQai.raiffiBGftaElSiaBePafid 1 of 1

MANDATE

S.D.N.Y.-N.Y.C.
06-cv-1202
Schofield, J.

United States Court of Appeals
FOR THE

SECOND CIRCUIT

At a stated term of the United States Court of Appeals for the Second
Circuit, held at the Thurgood Marshall United States Courthouse, 40 Foley Square,
in the City of New York, on the 8th day of January, two thousand twenty-one.
Present:

USDCSDNY
DOCUMENT
ELECTRONICALLY FILED
DOC #:
_______________
DATE FILED: April L 2021

Guido Calabresi,
Reena Raggi,
Denny Chin,
Circuit Judges.
Amy R. Gurvey,
Plaintiff-Appellant,
v.

20-1986

Cowan, Liebowitz and Lathman, P.C., et al.,
Defendants-Appellees,
Does, 1-X Inclusive, Michael Gordon,
Defendants.

Appellees move to dismiss the appeal and for sanctions. Upon due consideration, it is hereby
ORDERED that Appellees’ motion is DENIED. It is further ORDERED that the appeal is
DISMISSED because it “lacks an arguable basis either in law or in fact.” Neitzke v. Williams,
490 U.S. 319, 325 (1989); see also Pillay v. INS, 45 F.3d 14, 17 (2d Cir. 1995) (holding Court has
inherent authority to dismiss an appeal that lacks an arguable basis in law or fact). Appellant’s
mandamus petition, which was transferred to this Court as part of this appeal from the United
States Court of Appeals for the Federal Circuit, is DENIED because mandamus may not be used
as a substitute for an appeal. See Linde v. Arab Bank, PLC, 706 F.3d 92, 117-18 (2d Cir. 2013).
A True Copy
Catherine O’Hagan W

FOR THE COURT:
Catherine O’Hagan Wolfe, Clerk of Court

irk

United States CouittnAppeaS^econd Circuit
J SECOND Yf

f
lUAKirtA

i 4

i n o i 11— r~N

U>cx*r\ a ir\ a tr\r\r\A

>

■■■>

Jut-28-2011 02:16pm

T-444 P.001/001

+2128578681

FronrCalendar Team

F-4T0

A-671

! 5.

AMY Uu OmY\’.\\.Pn> Ss
|}5 Highland Avenue
UpperMpntelnir, N). 97043
<f> 17} '733-99^1

a
vmm si«vms .mmicr court

SOUTHERN Dtsmicf OF.NHW: YORK
X

amyiIcuryh Y,
(and liVE-Fl™ TEai^COGIES, LCC
as. the h«*t pariy-Mn^K^t iasslgncd
Gurveyrs US patents),
Wa&itiffs.
-agasnst-

CASK^O. t^CV-1.2fl2 (B5i)

•filffl

E* ■■

........'-T.ija-

NonctoFwo^i m nm iii||,u

I 'fesTo-c;

COWAN, □ EBOW.ri K & t-ATMAi^,. PC;
CtFXR CHANNEL
LCATJONS,
TNC-?NSTANTt)VjE:C(3NCeTr^.U«C;
I:JVE NATION, INC:, N EXTiCKETlNG, et al.,

I

€AsaM^_J

Defcrwlantd,-

X
*

PLEASE T.AKE;NOTICEtbalPImntiliAniy R. Gurvcy and.. (proposed) new PlaintitF
UYE-FI™ Technologies, LLC as.the real pariy-mdnieresrassigned Curvcy’s Issued .0$ patents
and other righn5. oF«irfbrc«aent m and lx> Ptointirs proprietary technologies and trade secrete,
will move this Court Q.nMby 10,201Q pursuant to FRCP Rule.50(h)..Tnie 35 and Title 15 ofthe
US- Code, for an.orde^ inter ^vacating thoCourt's.pirvioas order ofApril 24,2009 as moot,
joining UVF.-FI™ Technologies &s a p4rty'pIaintin;;gnmUnBPIaid rife an extension of time.to
retain ne.w couns^,.severing Certain-claims againscihe.dif&ceoc groups of defendants* and
ordering service of Plot miffs Fourth Amended Ccnnplalntlierem.for.a: tempo*# rcstrahgng
order,damages for patent iftfringement unfairxxtmpeTiUon, violation ofthbnd||# laws,
sanctions 6>r fraud, attorneys fccsgnd costs, datnages pursuant to IS US.C

breach of

*

fiduciary duty and such other and further reliefas the Cornr deems just, and proper.
I

>

A'T

A-672
AMY R. GURVEY
[LIVE-FI™ TECHNOLOGIES, LLC]
315 Highland Avenue
Upper Montclair, NJ 07043
(917)733-9981

X

CASE NO. 06-CV-1202 (BSJ)

^veG^tEchnoLogIEs , LCC
as the real party-in-mterest assigned
Plaintiffs US patents),
Plaintiffs,

AFFIDAVIT IN SUPPORT
PLAINTIFFS’ MOTION TO
VACATE AND SERVE
FOURTH AMENDED COMPLAINT

-againstroWAN LIEBOWITZ & LATMAN, PC;
CL^CH^NEL COMMUNICATIONS,
INC/ LIVE NATION, INC.;
INSTANTLIVE CONCERTS, LLC;
NEXT TICKETING; ET AL.,
Defendants.

X

INTRODUCTION
I.
tion is brought pursuant to FRCP Rule 60(b), Titles 35,15 and Rule 15 of the US
This mo
. In it, Plaintiffpro
Code, the Restatement of Torts Second and the Uniform Trade Secrets Act
„ Amy R. Gurvey 2, an inventor, producer and attorney, seeks to:

'

i

1 See also, Sr-hreiher Foods, Inc v.P/rrimnv. Foley &

2d286~(EDNY 2004)
!

2 Plaintiffs 2008-9
l^"noti“a°coaS
merger partner

™.h LiveNmion defendants, their new proposed

, Ticketmaster, Inc. or with defendant CLL.
3

>

A?

A-673
vacate the April 24,2009 order of SONY, toSH******-*"^
(1)

t to FRCP Rule 60(b)(2) based on new evidence, zjl, two US
Plaintiffs Exhibit 1) pursuan
patents issued to

Plaintiff Gurvey in October. 2009 and January

inventions premised on two unpublished USPTO p

rovisional patent application Nos. 60/382,710
firm Cowan Liebowitz & Latman, PC

and 60/382,949 (“PPAs”) filed by defendant NY law
(“CLL”) as

, 20103 representing separate

Plaintiffs attorneys on May 22 and 24, 2002,

(2)

t to FRCP Rule 60(b)(3) and the
Vacate this Court’s April 24,2009 order pursuan
distinct sets of untruthful/ftivolous Rule 12(b)

catchall fraud phrase of Rule 60(b) based on two
submitted in 2006 and 2008 by opposing law firm Baker Bolts on behalf of its
motion papers
Instant Live Conceits and Next Ticketing

clients, defendants Clear Channel, Live Nation, Inc.
(collectively “Live Nation defendants

”) wherein defendants falsely swore under oath “no
over them in this lawsuit (Exhibit 2)4 •
contacts with NYS” to attempt to avoid jurisdiction
ith New York State were subsequently
[NOTE: Live Nation defendants’ contacts wi
dings before Hon. Rosemary M. Collyer in United
acknowledged and found in the current procee
Jnc^, Fed. R. Vol. 75, No. 27, Case
y yrr--'"'defendant hereMUMMsm
States v.
, February 10,2010) (Exhibit 3). Live Nation
No. ltlO-cv-00139) (DC District Court
untruthful motion papers denying all contacts with other
defendants also submitted similar

I

3 US Patent Nos. 7, 603,321(the “321

^10,547 (the “547 Patent), the

latter issued Notice of Issuance with all fees paid m
i

!

uary,

4 Defendants’ motions papers were, in fact,
favor
-duly prejudicing/dismissing Plaintiffsms^n^^aw^
blaJant falsity 0f their proffers,
un
particularly because moving attorneys,
Srkreiber Foodsv^BeatnciJind
never informed the Court or,
njSCA Fed Cir. 2005) on the issue of sanctions for frau
the falsity of his own proffered material evidence.
4

AT

A-674
the Federal Courts that is expressly
isconduct before
of prejudicial and frivolous documentary rrn
proscribed in Section IV of Judge Collyer’s Competitive Impact Statement issued January 25,

2010 and precedent for purposes

of this lawsuit (Exhibit 3)];

Vacate this Court's April 24,2009 order pursu

ant to FRCP Rule 60(b)(6) based

(3)
Live Nation defendants’ antitrust crimes against society cited by the Electromic Frontier
on

dishonest business practices defendants used to

Foundation in 2005-2006 that are the same
Technologies from its venues (Exhibit 5) while, at
unlawfully preclude Plaintiff and LIVE-FI ™
the same time, unlawfitlly using its

monopoly of 150 US concert venues, 30 abroad and 250
Plaintiffs business and violate the antitrust laws;

radio stations to attempt to destroy
(4)

Join as a party plaintiff, real party-in-intere

st LIVE-FI™ Technologies, LLC, a

Delaware limited liability corporation assigned Gurvey's patents
in and to P laintiffs
(5)

intellectual property interests and trade secrets;

Grant Plaintiffs an extension of time to retain new

against the Live Nation defendants on the one
the other; and
i

(6)

and other rights of enforcement

counsel and sever the claims

hand from those against the CLL defendants on

urth Amended Complaint herein that seeks a TRO,
Order service of Plaintiff s Fo

y be, sanctions, and such other and further relief
double and treble damage claims, as the case ma
entof Plaintiff s patents directly
Court deems just and proper for defendants’ infringem
as the
rmd through the doefrine of equivalents, dishonest business practices, unfair conation,
d 18 USCA Section 1030, breach of fiduciary duty,
iolations of the Sherman Act an
thorized continuing use and
misappropriation, malpractice, fraud before this Court and unau
!

deployment of each of Plaintiffs inventions.

5

(N

V>"

ft 10

A-67S
pt aintiffslfour:

p-AM^N»ED COMPLAINT

II
prpiSDlCTlQN
Plaintiff s Fourth Amended Complaint is based on Titles 15 and 35 of
Jurisdiction over
h US code 18 USC Section 1030, die Uniform Trade Secrets Act, as they pertam to unlawful
^

f Piaintiff s trade secrets .ha, resulted in two US paten.,

thorized misappropriation o
and unau
d infringement of Plaintiff. inventions direct,, and by the doctnne
unauthorized deployment an

titrust violations and
, dishonest business practices, an
of equivalents, unfair competition
nduct before the United
n of Plaintiff s trade secrets and misco
defendant CLL’s misappropriate
inn of Plaintiff s patent portfolio.
ark Office that prejudiced prosecution o
States Patent and Tradem
f 22 NYCRR 603 and tortious
CLL’s breach of fiduciary duty, violations o
Claims for
gend Films are joined as arising out the sam
ith Plaintiffs contract with Le
interference wi
isdictionofthe Federal Courts. FRCP Rule
facts under the pendent juris
nucleus of operative
Industries., 402 F. 3d 1198,61 Fed.
p.ntrirP. CheesejmdKusiner
60(b), SchreiberJFoods Inc, v.
Foley & I-urnder, 594 F.
4 USPQ 2d 1204 (USCA Fed. Cir.) (2005) , Vaxiion v,
R.Serv.3d 174, 7

I
!

Supp. 2d 1153 (SD CA 2008).

III.

PARTIES

tiff, Amy R. Gurvey, is an inventor, p
Plain

roducer, development executive and CA

in Montclair, NJ.
attorney currently residing m
ited liability company assigned
Delaware
lim
LivE-FI™ Technologies, LLC is a
1

Plaintiff Amy R- Gurvey

•s patents and intellectual property

enforcement therein.

6

interests including rights of

AH

A-676
ational trademark practice

t CLL isaN^rin^7CTr^thraH4ate^

Defendan

headquartered at 1133 Avenue f the

Americas, New York, NY 10036.
, Simon Gerson, Esq., William Borcbard, Esq.,

Defendants Midge Hyman, Esq.
of defendant CLL.
ila Celedonia, Esq. are equity partners
Christopher Jensen, Esq. and Bai
collectively referred to
Borchard, Jensen and Celedonia are
Defendants CLL, Hyman, Gerson,
herein as “CLL defendants”.
at times relevant, client(s) of defendant CLL.
belief, either or both of Gordon or Phish were
d belief, defendant Gordon resides in Burlington, VT.
Upon further information an
is a Texas corporation and the parent
Defendant Clear Channel Communications, Inc.
rtainment Inc. (“CCE”), a client of
f defendant Clear Channel Ente
and/or holding company o
in turn defendant Live Nation, Inc. in 2005.
defendant CLL, that became CCE Spinco and m
and is a Delaware
is the world’s largest concert promoter,
Defendant Live Nation, Inc.
er Drive, Beverly Hills, CA, assigned all defendant
corporation, located at 9348 Civic Cent

-i

CCE’s US and foreign concert venues.
Defendant Instant Live Concerts

is a Massachusetts LLC forme

ired by defendant Live Nation in 2005
defendant CCE that was acquire

d in 2003 by principals of

and is now also located at

9348 Civic Center Drive, Beverly Hills, CA.
affiliate of defendant Clear Channel based in San
Defendant Next Ticketing is an
Antonio, TX.

Channel Communications, CCE, Live Nation, Instant Live Coneys

Defendants Clear
and Next Ticketing
i

“Live Nation defendants”, except when

are collectively referred to herein as

expressly referred to individually.
7

A itA-677
xv
The following facts are

tiTUl^TrON-HlST-OI^Y
intiffs motion-in-chief and instant
undisputed in support of Plain

Fourth Amended Complaint since issuance of two US Paten

Plaintiff in October, 2009 and

tiff LIVE-FI™ Technologies, LLC:
, 2010 assigned to proposed new plain
January
reducer, development executive and attorney, was
In 2001, Plaintiff, an inventor, p
(1)
prised then only of
party, Legend Films, a Nevada LLC , com
General Counsel of a brand new com
Jeffrey Yapp (Plaintiffs long
founders and one investor,
two
three Class A shareholders
Since then, and
iness colleague), Barry Sandrew and Alan Folkman.
standing client and bus
evious analog technology and work to
based on Plaintiffs efforts, ideas for Legend's digital v.pr
end Films, Inc. of San Diego, CA, employmg
get Legend a patent, the LLC has become Leg
d white film and video colorization.
240 individuals worldwide in the field of black an
some
„d Films for services since 1999 to its original
(2)
Plaintiff s contract with Lege
dilution plus an in-house salary
ntitled Plaintiff to 3% of Class B authorized stock prefounders e
ienificant round of venture
effect when the company had its first sig
to be negotiated to take
funding.

interested in representing Legend and
(3)

I

On April 17,2002, defendant CLL partners,

other of Plaintiff s entertainment an

d technology clients including videogame

/Atari mastermind

ith Plaintiff effective January 15,2002
Of Counsel contract wi
Nolan Bushnell, signed a one-year
56
reserved interests were expressly set stated. Plaintiffs
inclusive of a rider on which Plaintiffs

Of counsel

:

5 That Plaintiffs
17 2002, was found by arbitrator
this lawsuit.
6 CLL’s first papers in this
affirmation ^9-"
an attempt to

signed by defendant CLL on April
wasEsq. in
ScLan,
in 2009 and is res judicata in

SoTCl codes, in
improperly argue for a different date of
8

Case l:06-cv-01202-LGS-HB

OTWF17

Hieu uo/u

20

Page 1 of 124

DOCUMENT
ELECTRONICALLY FILED
nnr itDATE FILED: 3/9/2020-----

Amy R. Gurvey
____
US Patentee / Plaintiff Pro^e
315 Highland Avenue
Upper Montclair, NJ 07043
PH: (917) 733-9981
amveurvey®gmail.com
Application for reconsideration DENIED. Plaintiff does not
raise any new information compelling a different result on her
Motion to Vacate the March 17, 2009, Order drsmiss.ng
Defendant Live Nation (Dkt. No. 65).

district court

Nadon*--whiclTsIie'is now'cha'ilenging - was da“UCT OF NEW YORK
1.

explains- even if Plaintiff had filed an April 22, 2010, motion to
vacate the March 17, 2009, order, any such motion wouid not
[have been] reasonably prompt, because it would have been
filed over a year after the March 17, 2009, Order. Cf. Fed. R.
60(c)(1) (Rule 60 motions generally should not be
Civ. P.
"more than a year after the entry of the... order being
made
challenged.)"

X

Amv~R. Gurvey v. Cowan. Liebowitz &
Lathman, PC, ET AL.

CASE NO. 06-1202-cv (LGS)

notice of motion to
reconsider denial of
2. Any appeal of the March 17, 2009 Order is not timely. See
US PATENTEE/PLAINTIFF’S
Fprl R Add P 4‘ Gurvey v. Cowan, Liebowitz & Latman,
PC 462?'Appx 26, 30 n.5 (2d Cir. 2012) ("Gurvey r)
MOTION TO VACATE SONY
(finding that Second Circuit did not have jurisdiction t
%)RDERS BASED ON
consider appeal of the March 17, 2009, Order, because
Plaintiff did not timely include the Order in her notice of
. .
FAILURE TO ADJUDICATE
appeal) The issues in this action have been fully adjudicated
appealed twice. See Survey I.
w
APRIL 2010 AMENDED
Cowan Liebowitz & Latman, P.C., 757 F App x 62 £d C rCOMPLAINT STATING
20181 cert denied, 140 S. Ct. 161, 205 L. Ed. 2d 52 (2019),
Damages for patent
reh'g denied, No. 18-8930, 2019 WL 6257536 (U.S. Nov. 25,
INFRINGEMENT, AIDING &
2019).
a i
ABETTING INFRINGEMENT
g^^O^fillngs^he^erei^es^'Among^tt^^tachmentLh?

1

' AND C^YTON ANTITRUST

one closest in time is a May 10, 2010, notice of motion to

VIOLATIONS [35 USC § 271

vacate the April 24, 2009, Order. Both Judge Jones m a
reconsideration Order (Dkt. No. 80) and the Second Circuit
conclusively reviewed the April 24, 2009, Order.

271(b) 285 286; 15 USC§18]
Z

4. The January 28, 2020, Amended Final Judgment *"d ..
Consent Decree, in the Department of Justice s ant trust ac
aaainst Live Nation Entertainment, Inc. (available at https.//
www.justice.gov/atr/case-document/file/1241016/download),

Dated: March 9, 2020
New York, New York

not bear on the issues below or warrant vacatur
does
Orders in this action.
Accordingly, reconsideration of the February 13 2020
Order (Dkt. No. 428) -- denying Plaintiffs untimely motj
to vacate -- is DENIED. If Plaintiff files frivolous materials,
an injunction may be imposed, requiring Plaintiff seek
permission firs.

LORI^A G. SCHOFIEL1

United States District Judge

a, vu-C'"'

"'V
fYnpj

Case l:06-cv-01202-LGS-HB£

------- ./no

filrrl n?/13/9n

Page 1 of 1

USDCSDNY
DOCUMENT
ELECTRONICALLY FILED

Amy R. Gurvey
US Patentee/Plaintiff Pro Se
315 Highland Avenue
Upper Montclair, NJ 07043
PH: (917) 733-9981
amygurvey @gmail. com

-nnrr#r

—

nATF.FTT.ED: 2/13/2020~

UNITED STATES DISTRICT COURlj

: ' - FEB 6-202U

SOUTHERN DISTRICT OF NEW YORK
! i:

;;

AMY R. GURVEY,
Plaintiff Pro Se,

CASE NO. 06-1202-cv (LGS)

This motion to vacate is DENIED. There is no
April 22, 2010, motion on the docket. In any
case, this motion to vacate is untimely.
Federal Rule of Civil Procedure 60(c)(1)
requires that any motion to vacate, under
Rule 60(b)(6), "be made within a reasonable
time." It's been over a decade since the
March 17, 2009, order was entered. Even if
the April 22, 2010, motion to vacate were
^
filed, that motion was also not reasonably
//
prompt, because it would have been filed
over a year after the March 17, 2009, Order.
Cf. Fed. R. Civ. P. 60(c)(1) (Rule 60 motions
yy
generally should not be made "more than a
year after the entry of the ... order" being
challenged.) This action has been appealed
several times to the Second Circuit, and has

NOTION OF MOTION TO
VACATE SDNY ORDERS
AS TO DEFENDANT LIVE
NATION [FRCP 60(b)(6)]
[NOTE: Plaintiff's previous
motion filed April 22, 2010 to
^vacate March 17, 2009 order
jjjismissing defendant Live Nation,
line, was never adjudicated]
RETURN DATE FEB. 21. 2020
/

been resolved and closed.

/

-The Clerk of Court is respectfully directed to
close Dkt. No. 427, and to mail a copy of this

/■

/

....(Order to Plaintiff.

sy
Lori^a G. Schofield
United States District Judge

Dated: February 13, 2020
New York, New York

1

Case l:06-cv-01202-LGS-HBP Document 392 Filed 01/31/17 Page 1 of 2

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
■X

A22-

USDCSONY
DOCUMENT
ELECTRONICALLY FILED
DOC #:________________
DATE FILED: 1/31/2017

AMY R. GURVEY,
Plaintiff,
06 Civ. 1202 (LGS)
-againstORDER
COWAN, LIEBOWITZ & LATMAN, P.C,
et al.,
Defendants.
-X

LORNA G. SCHOFIELD, District Judge:
WHEREAS, Plaintiff filed a letter on January 20, 2017, seeking to correct the record or,
in the alternative, an Order directing Defendants to produce all documents cited in support of its
summary judgment motion, or in the alternative for Rule 11 sanctions.
WHEREAS, Plaintiffs letter alerted the Court that documents may be missing from the
Court’s records.
WHEREAS, the Court has located the majority of documents filed on the docket in 2006,
but for which electronic copies were not available.
WHEREAS, these records are being scanned and a links to them will be placed on the
docket. It is hereby
ORDERED that Plaintiffs motion to correct the record is DENIED as moot. The
majority of the documents that Plaintiff raised in her letter were located and will be scanned and
placed on the docket in electronic form. The remaining documents do not appear to be material
to the remaining claims at issue in this case — attorney malpractice and breach of fiduciary duty - or should not be filed. For example, the arbitration documents mentioned, the “pre-arbitration
and post-hearing briefs,” are not typically filed on the docket because they are submitted to the
arbitrator and not to this Court. It is further

Case l:06-cv-01202-LGS-HBP Document 392 Filed 01/31/17 Page 2 of 2

ORDERED that if there are specific documents cited by Defendants in their motion for
summary judgment for which there is a docket entry but which are not available on the docket,
Plaintiff may submit a letter, no longer than one page, listing those documents and the citation to
the document in Defendants’ summary judgment papers.
The Clerk of Court is directed to mail a copy of this Order to the pro se Plaintiff.
SO ORDERED.
Dated: January 31, 2017
New York, New York

LORT^A G. SCHOFIElJ}

^7

United States District Judge

2

'

Case l:06-cv-01202-LGS-HBP Document 368 Filed 12/01/16 Page 1 of 2

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
■X

US DC.SD.NY
DOCUMENT
ELECTRONICALLY FILED
DOC #:________________
DATE FIT .ED: 12/1/2016

AMY R. GURVEY,
Plaintiff,
06 Civ. 1202 (LGS)
-againstORDER
COWAN, LIEBOWITZ & LATMAN, P.C,
et al„
Defendants.:
X
LORNA G. SCHOFIELD, District Judge:
A conference having been held before the Court on November 29, 2016, and the Parties
having stated their intentions to file cross-motions for summary judgment, it is hereby
ORDERED that Defendants shall file any motion for summary judgment, not to exceed
thirty (30) pages, by January 4, 2017. Plaintiff shall file her opposition and cross-motion for
summary judgment, not to exceed thirty-five (35) pages, by February 17, 2017. Defendants
shall file their reply and opposition to Plaintiffs cross-motion for summary judgment, not to
exceed ten (10) pages, by March 3, 2017. Plaintiff shall file her reply in support of its cross­
motion, not to exceed five (5) pages, by March 17, 2017. It is further
ORDERED that, notwithstanding the aforementioned page allocation, the Parties may
reallocate the page numbers as they deem appropriate, so long as no Party exceeds forty (40)
pages of briefing in total; it is further
ORDERED that Defendants shall provide courtesy copies of all briefs to the Court in
accordance with the Court’s Individual Rule III.B.5; it is further

Case l:06-cv-01202-LGS-HBP Document 368 Filed 12/01/16 Page 2 of 2

ORDERED that the Parties shall otherwise comply with the Local Civil Rules and the
Court’s Individual Rules in filing their motions and supporting papers, including Local Civil
Rule 11.1, which directs the format to be used, and Individual Rule III.B.
The Clerk of Court is directed to mail a copy of this Order to the pro se Plaintiff.
SO ORDERED.
Dated: December 1, 2016
New York, New York

Lort^a G. Schofieli
United States District Judge

2

Case l:06-cv-01202-LGS-HBP Document 338 Filed 09/17/15 Page 1 of 14

UNi l ED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
X

M&

USDCSDNY
.DOCUMENTELECTRON IC A LLY FILED
DOC #:________________
DATE FILED: 9/17/15

AMY R. GURVEY,
Plaintiff,
06 Civ. 1202 (LGS) (HBP)
-againstOPINION AND ORDER
COWAN, LEIBOWITZ & LATMAN, P.C., et al,:
Defendants. :
X

LORNA G. SCHOFIELD, District Judge:
Magistrate Judge Henry B. Pitman, to whom this matter has been referred for supervision
of pretrial proceedings, issued a Report and Recommendation (the “Report”), dated July 24,
2015, recommending that: (1) Defendants Cowan Liebowitz & Latman, P.C., William Borchard,
Midge Hyman, Baila Celedonia and J. Christopher Jensen’s (collectively, “Defendants”) motions
for sanctions against Plaintiff Amy Gurvey under Federal Rule of Civil Procedure 11 be granted;
(2) Plaintiff he. sanctioned $20,000, payable to the Clerk of Court; and (3) this action be stayed
until Plaintiff pays the sanction, and that, if Plaintiff fails to pay the sanction within one year, the
action be dismissed with prejudice. For the reasons stated below, the Report is adopted in part
and rejected in part.

I.

BACKGROUND
The facts and procedural history relevant to the motions are set out in the Report and

summarized here.
A.

Relevant Factual and Procedural History

Plaintiff Amy Gurvey brought this action against her attorneys, Defendant Cowan
Liebowitz & Latman, P.C. (“Cowan”), several partners of, and one associate employed by,
Cowan (together with Cowan, the “Cowan Defendants”) and various other defendants, alleging
claims for, inter alia, misappropriation of trade secrets, unfair competition, breach of fiduciary

Case l:06-cv-01202-LGS-HBP Document 338 Filed 09/17/15 Page 2 of 14

»—the-TJnfd-AmendedComplaint was dismissed. In February 2012, the Second Circuit affirmed the dismissal of most
of Plaintiff s claims, but found that the Third Amended Complaint stated plausible claims for
attorney malpractice and breach of fiduciary duty against the Cowan Defendants and remanded
the case for further proceedings. Gurvey v. Cowan, Liebowitz & Latman, P.C., 462 F. App’x 26
30 (2d Cir. 2012). The mandate issued on March 12, 2012.
Plaintiff is a lawyer suspended from the practice of law in the State of New York. In the
three-and-a-half years since the Second Circuit mandate, Plaintiff has acted pro se except for a
five-month period from April 7, 2015, to September 14, 2015. During those years, she has done
little to bring her claims to resolution. Plaintiff has failed to comply with discovery orders, has
resisted the taking of her own deposition and has filed a multitude of meritless motions and
applications.
For instance, by Order dated July 15, 2013, Judge Pitman found that Plaintiff had
violated: (1) an Order dated October 10, 2012, by seeking discovery that far exceeded the scope
of her malpractice and breach of fiduciary claims; and (2) an Order dated January 14, 2013, by
failing to provide Judge Pitman with written explanations of how each of her discovery requests
served on Defendants were relevant to her two claims for attorney malpractice and breach of
fiduciary duty by the court-order deadline of January 17, 2013. The July 15, 2013, Order denied
Plaintiffs request for an extension of time, stating that Plaintiff s excuse that she was
hospitalized for a couple months for health reasons were baseless as she continued to make
numerous filings during that period.
Rather than pursuing her claims, Plaintiff has made the following applications, among
others: (1) permission to file a proposed fourth amended complaint, fifth amended complaint and
2

Case l:06-cv-01202-LGS-HBP Document 338 Filed 09/17/15 Page 3 of 14

^ixtii^mended-eompfai-n-t7-(-2^-disqtiafi-0ea-t4Qn-Gf43efeH4ants~GOumel;-(-3-)-afl-ex-tensi.Q.n-o.f-ti-meJ:o.
effect service even though Plaintiff commenced the action in 2006; (4) reconsideration of orders
and opinions; (5) remand to state court; (6) purported interlocutory review of Judge Pitman’s
decisions directly by the Second Circuit; (7) sanctions against Defendants; and (8) judicial
recusal.
As a result, the docket sheet has grown by over 200 entries since this case was remanded
by the Second Circuit over three years ago. Despite the size of the docket sheet, and a fact
discovery deadline of September 19, 2014, this case has not proceeded to the summary judgment
stage or trial.
B.

The Report and Subsequent Events

Defendants have moved for Rule 11 sanctions against Plaintiff, asserting that she filed
(1) a frivolous motion for reconsideration of an order imposing Rule 37 sanctions on Plaintiff for
failure to comply with her discovery obligations and two court orders; (2) a frivolous motion to
file a proposed sixth amended complaint; and (3) a frivolous motion for disqualification of Judge
Pitman. The Report found that each of these three submissions by Plaintiff violated Rule 11.
The Report recommended sanctions of $20,000 payable to the Clerk of Court, a stay pending
payment and dismissal of this case if the sanction was not paid within one year. The Report
reasoned that such sanctions were appropriate because, inter alia, Plaintiffs conduct was willful;
Plaintiff had engaged in a pattern of frivolous motion practice both in this case and in other
unrelated cases; and sanctions of $8,783 and $5,700 imposed in unrelated proceedings had not
dissuaded Plaintiff from continuing to engage in sanctionable conduct.
On August 7, 2015, Plaintiff - briefly represented by counsel - timely filed objections to
the Report (the “Objections”). The Objections do not specifically address why the three
3

•

Case l:06-cv-01202-LGS-HBP Document 338 Filed 09/17/15 Page 4 of 14

hi

submissions do not violate Rule 11. Rather, the Objections assert that the procedural history of
this case shows that Plaintiffs conduct has not been frivolous and was not intended to harm,
harass or delay the proceedings.
On August 20, 2015, Defendants timely filed responses to the Objections (the
“Responses”), stating the Objections should not be sustained and that the Report should be
affirmed.
Proceeding pro se, on August 24, 2015, Plaintiff filed an interlocutory appeal with the
Second Circuit challenging, among other things, two of the matters at issue on this sanctions
motion — Judge Pitman’s decision denying Plaintiffs motion for recusal and her motion for leave
to file a proposed sixth amended complaint.
II.

LEGAL STANDARD
A.

Standard of Review

A reviewing court “may accept, reject, or modify, in whole or in part, the findings or
recommendations made by the magistrate judge.” 28 U.S.C. § 636(b)(1)(C). Typically, the
district court “may adopt those portions of the report to which no ‘specific, written objection’ is
made, as long as the factual and legal bases supporting the findings and conclusions set forth in
those sections are not clearly erroneous or contrary to law.” Adams v. N. Y. State Dep ’t ofEduc.,
855 F. Supp. 2d 205, 206 (S.D.N.Y. 2012) (citing Fed. R. Civ. P. 72(b), Thomas v. Am, 474 U.S.
140, 149 (1985)). But in the context of Rule 11, the Second Circuit has left open whether de
novo review is required for a magistrate judge’s recommendation of sanctions under Rule 11.

1
Where, as here, a party files a frivolous interlocutory appeal, a district court is not
divested of jurisdiction. See United States v. Rodgers, 101 F.3d 247, 251-52 (2d Cir. 1996) (“We
fail to see any efficiency in allowing a party to halt district court proceedings arbitrarily by filing
a plainly unauthorized notice of appeal which confers on [the appeals court] the power to do
nothing but dismiss the appeal.”).
4

Case l:06-cv-01202-LGS-HBP

Document 338 Filed 09/17/15 Page 5 of 14

Kiobel v. Matson, 592 F.3d 78, 79-80 (2d Cir. 20.0) (declininp .0 decide
Judge applied the correct standard of review to the M

h.12-

n„rH

agistrate Judge’s determination that Rule 11

ns were warranted ). In an exercise of caution, the review below is de novo.
B.

Rule 11 Standard

Rule 11 states that an attorney or pro
other paper” to a court thereby “certifies”

se party who presents “a pleading, written motion, or

that to “the best of the person’s knowledge,

information, and belief,” formed after a reasonable i
inquiry, the filing is: (1) not presented for any
improper purpose, such as to “ harass, cause unnecessary delay, or needlessly increase the cost of
litigation ; (2) “warranted by existing law or by

a nonfrivolous argument for extending,

modifying, or reversing existing law or for establishing new law”;

and (3) supported in facts

known or likely to be discovered on further i
investigation. Fed. R. Civ. P. 11(b). “[A] court may
impose an appropriate sanction on . .

• a party that violated [Rule 11(b)] or is responsible for the

violation.” Fed. R. Civ. P. ll(c).
“[T]he main purpose of Rule 11 iis to deter improper behavior, not to compensate the
victims of it or punish the offender.”

Universitas Educ., LLC v. Nova Grp., Inc., 784 F.3d 99.

103 (2d Cir. 2015) (quoting 5A Charles Alan Wright et al.,
1336.3 (3d ed. 2004)). For sanctions issued pursuant to

Federal Practice and Procedure §

a motion by opposing counsel, courts

have held that an attorney or litigant “could be sanctioned for conduct that
unreasonable.” Muhammad v. Walmart Stores East, L.P., 732 F.3d 104
[District courts are given ‘broad discretion’ in
sanctions fit within the confines of the rule.”

was objectively

108 (2d Cir. 2013).

creating Rule 11 sanctions,” so long as the

Universitas Educ., 784 F.3d at 103 (quoting

O Malley v. N.Y.C. Transit Auth., 896 F.2d 704, 709 (2d Cir. 1990)).

5

■

Case l:06-cv-01202-LGS-HBP

III.

Document 338 Filed 09/17/15 Page 6 of 14

A? 3

DISCUSSION
Upon a de novo review of the re

cord in this litigation, including the pleadings, the docket

sheet, the parties’ respective submissions filed i
in connection with the motions described in the
Report, applicable legal authorities, th
e Report, the Objections and the Responses, the Court
adopts the Report’s findings,

reasoning and legal support for concluding that Plaintiff violated

Rule 11. The Report’s recommendations about the

sanctions to be imposed are modified as

discussed below.
A.

Plaintiff Violated Rule 11

The Report correctly found that th
(1) Plaintiff s motion for reconsid
Reconsideration”); (2) Plaintiffs

e following frivolous filings violated Rule 11 :

eration dated March 24, 2014 (the “Motion for

motion for leave to file a proposed sixth amended complaint

(“Motion to Amend”); and (3) Plaintiff’s motion to disqualify Judg
e Pitman (the
“Disqualification Motion”).
1.

Plaintiffs Motion for Reconsideration

The Motion for Reconsideration violated Rule 11

as it lacked any factual or legal basis,
“Rule 11 permits sanctions against a litigant who submits a
pleading or motion that, evaluated
‘under an objective standard of reasonable
ness,. • • [has] no chance of success and [makes] no
reasonable argument to extend, modify or reverse the law as it stands.'”
Smith v. Westchester
Cnty. Dep’t of Corr., 577 F. App’x 17,
Agricole- CNCA, N. Y Branch

18 (2d Cir. 2014) (quoting Came Nationale de Credit

V- Valcorp, Inc., 28 F.3d 259, 264 (2d Cir. 1994)) (affitming

imposition of Rule 11 sanction for

a frivolous motion for reconsideration); accord Maisonville v.

F2 America, Inc., 902 F.2d 746, 748-49 (9th Cir. 1990) (affirming imposition of Rule 11
sanctions for frivolous motion for reconsideration)
6

; Miller v. NorfolkS. Ry. Co., 208 F. Supp. 2d

Case l:06-cv-01202-LGS-HBP Document 338

Filed 09/17/15 Page 7 of 14

AM

851,853-54 (N.D. uhio
reconsideration that “presented no basis on

which it could, or should[,] have been granted ),

, 626-27 (S.D. Miss. 1990) (imposing Rule
Atkins v. Marathon LeTourneau Co., 130 F.R.D. 625
frivolous motion for reconsideration that merely repeated arguments made in
11 sanction for
. iginal motion). Applying an objective standard, a reasonable person in Plaintiffs
on
circumstances

would have known that the motion was baseless.

The Motion for Reconsideration lacked any chance of success
Judge Pitman did not consider the evidence

The motion asserted that

before him and found facts not supported by the

factual misrepresentations, including that,
evidence. In support, however, it relied on numerous
“only considered [Defendants’] papers but did
(1) Judge Pitman admitted at a conference that he
” in connection with a motion for sanctions, which
not consider all [of] Plaintiffs relevant pap ers
of Plaintiff s submissions in the relevant order; and
is contradicted by the extensive discussion
“reframe sanction arguments already rejected .. • [by] the
(2) Defendants had been permitted to
d Circuit’s decision did not discuss sanctions and the conduct
Second Circuit,” when the Secon
being sanctioned occurred after the Second Circuit's decision, The motion also relied on
numerous alleged instances of misconduct by defense
requested — reconsideration
comply

counsel that were unrelated to the relief

of an order imposing Rule 37 sanctions on Plaintiff for failing to

with court orders or with her discovery obligations.

Accordingly, the Motion for

Reconsideration violated Rule 11 as the legal arguments were

frivolous, and the factual

contentions were unsupported by any evidence.
Reconsideration was objectively unreasonable because Plaintiff
Bringing the Motion for
knew the standard for a motion for reconsideration,

First, in April 2013, Plaintiff had been

sanctioned for filing “repeated, unsupported requests for reconsideration” in an unrelated case.
7

Case l:06-cv-01202-LGS-HBP Document 338 Filed 09/17/15 Page 8 of 14

^./^v^-VT-/7ege«^/-C//m5T7«t'—No-09-€rvr94-27-2f)-lo-Wfc-l'8^3'23<)7ar*'r('S7D7Ca“May3;
2013). Second, on August 1, 2013, Plaintiff — acting pro se — filed a motion for reconsideration
that included the legal standard for such a motion. Finally, about one month before Plaintiff
brought the Motion for Reconsideration, Judge Pitman’s February 25, 2014, Order again stated
the relevant legal standard in denying Plaintiffs motion for reconsideration not at issue here. The
February 25, 2014, Order also warned Plaintiff that further noncompliance with the Federal Rules
of Civil Procedure could result in sanctions, including dismissal of the action. By failing to heed
Judge Pitman’s warning and filing the frivolous Motion for Reconsideration, Plaintiff violated
Rule 11.
2.

Plaintiffs Motion to Amend

Plaintiff s Motion to Amend also violated Rule 11 because the proposed sixth amended
complaint was duplicative of her proposed fifth amended complaint. Rule 11 sanctions may be
imposed when a proposed amended complaint “not only failed to correct legal deficiencies in
plaintiffs’ earlier amended complaints, but reasserted, without sufficient new factual allegations,
numerous claims that [had been] dismissed, and asserted certain other claims without any
substantive legal basis.” Adams v. N.Y. StateDep’tofEduc., 855 F. Supp. 2d 205, 206 (S.D.N.Y.
2012) (imposing Rule 11 sanctions for proposed complaint that “merely retreaded claims
previously dismissed”), aff’dsub nom. Hochstadtv. N.Y. State Educ. Dep’t, 547 F. App’x 9 (2d
Cir. 2013).
By Decision and Order dated July 15, 2013, Judge Pitman denied Plaintiffs motion to file
the proposed fifth amended complaint based on futility, failure to state a claim, undue delay and
prejudice to defendants. That order provided a detailed recitation of the relevant pleading
standards and discussed the substantive law. Judge Pitman then denied Plaintiffs motion to
8

Case l:06-cv-01202-LGS-HBP Document 338 Filed 09/17/15 Page 9 of 14

reconsider that order. Plaintiff subsequently sought leave to file a proposed sixfh amended
complaint, asserting that it made new allegations based on facts disclosed by Defendants in their
document production after the proposed fifth amended complaint had been rejected, But, as
detailed in the Report and in Judge Pitman’s Opinion and Order dated July 21, 2015, denying
leave to file a sixth amended complaint, there is no material difference between the two proposed
complaints.
Among other things, both proposed complaints allege: (1) Defendants failed to act
competently in prosecuting Plaintiffs patent applications, causing her damages; (2) Defendants
disclosed Plaintiffs confidential information to its clients; and (3) Defendants breached its
obligations to Plaintiff by providing services to Legends Film to Plaintiffs detriment. The
proposed sixth amended complaint was merely a restated and reorganized iteration of the
proposed fifth amended complaint. Accordingly, the motion to file yet another amended
complaint violated Rule 11.
3.

Plaintiffs Disqualification Motion

The Disqualification Motion also violated Rule 11 because it contained numerous factual
misrepresentations. As discussed in the Report and in Judge Pitman’s Opinion and Order dated
July 21, 2015, denying the Disqualification Motion, this motion incorrectly asserted, inter alia,
that: (1) Judge Pitman denied Plaintiff discovery by failing to schedule a discovery conference
until March 19, 2014, but conferences were held on October 9, 2012, and January 3, 2013, and, in
any event, Judge Pitman decided various discovery motions on the papers; (2) Judge Pitman
improperly considered information from outside this case; (3) Defendants counsel supervised
attorneys on the Departmental Disciplinary Committee in 2007 to obtain an unfair advantage in

9

Case l:06-cv-01202-LGS-HBP

this litigation; and (4) Defendants

Document 338 Filed 09/17/15 Page 10 of 14

A?J

’ counsel submitted “altered” evidence and “tampered] wfth

files in the public room.” These frivolous allegations violate Rule 11.
4.

The Objections

In arguing for a contrary result, the Objections make three
arguments. First, the
Objections assert that Plaintiff acted i
m good faith. Specifically, the Objections argue that
Plaintiff “was ‘over her head’ iin attempting to litigate this case herself’ and had filed
motions in an effort to obtain discovery and move this
argument is unpersuasive. Rule 11 applies to pro

numerous

case to a decision on the merits. This

se litigants. Fed. R. Civ. P. 11 (b)-(c) (“[T]he

court may impose an appropriate sanction

on any attorney, law firm, or party that violated [Rule
11(b)] • • . . ) (emphasis added); see also Patterson v.
Aiken, 841 F.2d 386, 387 (11 Cir. 1988)
(per curiam) (“[Ojne actingjC has no license to h
arass others, clog the judicial machinery
with meritless litigation, and abuse already overloaded eourt dockets.”
(quoting Farguson v.
MBank Houston, N.A., 808 F.2d 358, 359 (5th Cir. 1986)).
Moreover, “(Plaintiff] is a lawyer and, therefore, [s]h

e cannot claim the special

consideration which the courts customarily grant to pro se parties.” Harbulak v. Suffolk Cnty.,
654 F.2d 194, 198 (2d Cir. 1981); accord Fox

v. Boucher, 794 F.2d 34, 38 (2d Cir. 1986) (“When

the litigant is an attorney sanctions are
particularly appropriate.”). Finally, Plaintiff had b

een

warned that further noncompliance with the Federal Rules of Civil Proced
ure would result in
sanctions, but failed to heed this

warning. Accordingly, this argument fails.

Second, the Objections assert that this Court’s March 19,
Pitman of any further jurisdiction. This is incorrect
Honorable Barbara S. Jones, upon her retirement,
advising that a new judge would be

2013, Order divested Judge

• This case was reassigned from the

to this Court on March 11, 2013, in effect

replacing Judge Jones on the case. The March 19
10

,2013,

(
1

Case l:06-cv-01202-LGS-HBP Document 338 Filed 09/17/15 Page 11 of 14

A*8

Order did not withdraw the referral to Juage~Pftmari-for-generat-pFet-r-ia-l-stip&r-v.ision^an.dJ.udgfi_
Pitman has continued to supervise general pretrial matters since that Order was entered over two
years ago. Accordingly, this argument is meritless.
Finally, the Objections allege that “Judge Pitman may not have the power to decide a
motion to amend the complaint due to its dispositive nature.” This is incorrect. The Second
Circuit has considered and rejected a similar argument, finding that a “magistrate judge acted
within his authority in denying [a] motion to amend the complaint.” Marsh v. Sheriff of Cayuga
Cnty., 36 F. App’x 10, 1 (2d Cir. 2002) (citing 28 U.S.C. § 636(b)(1)(A)). Accordingly, this
argument fails and the Report’s finding that Plaintiffs Disqualification Motion violated Rule 11
is adopted.
B.

Nature of Sanctions Imposed

“Once a court determines that Rule 11(b) has been violated, it may . . . impose sanctions
limited to what is ‘sufficient to deter repetition of such conduct.’” Margo v. Weiss, 213 F.3d 55,
64 (2d Cir. 2000) (quoting Fed. R. Civ. P. 11(c). “District courts are given broad discretion in
tailoring appropriate and reasonable sanctions.” O’Malley, 896 F.2d at 709; accord 5A Charles
Alan Wright et al., Federal Practice and Procedures § 1336.3 (3d ed.) (“[Fjederal courts retain
broad discretionary power to fashion novel and unique sanctions to fit the particular case.”).
“[Djismissal remains available directly under Rule 11 although it is reserved for the rare case
involving extreme misbehavior by the offending party, such as fraud, contempt, and willful bad
faith.” Id.
The Report recommended - and this Court agrees - that significant monetary and non­
monetary sanctions should be imposed because, inter alia, (1) Plaintiff s conduct has been willful;
(2) prior sanctions of $5,700 and $8,783 in unrelated actions had not dissuaded Plaintiff from
11

Case l:06-cv-01202-LGS-HBP Document 338 Filed 09/17/15 Page 12 of 14

-e^gagmgln_frjvoXous_mp_tion_practjce_;_amj_jT) Plaintiffs actions in this litigation have
unnecessarily delayed resolution of this case.
The Report s recommendation of a $20,000 sanction, however, is reduced to $10,000 to
pay for a special master, as detailed below. The amount of $10,000 is reasonable and likely
sufficient to pay a special master as discovery has closed and all that remains are dispositive
motions, if any, followed by a potential trial. Review by the special master at Plaintiffs

expense

is necessary to deter Plaintiff from repeating the sanctionable conduct as Plaintiff has continued
to file meritless applications and motions notwithstanding the close of discovery approximately
one year ago. See Fed. R. Civ. P. 11(c)(4) (“A sanction imposed under this rule must be limited
to what suffices to deter repetition of the conduct or comparable conduct by others similarly
situated. ). To the extent that Plaintiff continues to make court submissions as she has in the
past, review by a special master appears necessary to address pretrial matters that cannot be
effectively and timely addressed by an available district judge or magistrate judge. See Fed. R.
Civ. P. 53(a). Barring Plaintiff from filing further papers in this case, except as specified below,
is necessary to deter repetition of Rule 11 violations, prevent further delay and bring this nineyear-old case to a resolution on the merits. Accordingly, the Report’s recommendation is
modified, and the following sanctions are imposed on Plaintiff:
(1)

This case is stayed, unless and until $10,000 is deposited with the Clerk of Court.

(2)

Plaintiff may deposit $ 10,000 with the Clerk of Court, and the Clerk of Court shall
maintain the funds in an interest bearing account until further order of the Court.

(3)

The funds shall be used to pay a special master appointed by the Court to
(a) familiarize himself or herself with this case and (b) review Plaintiff s proposed
filings to determine whether they are frivolous or otherwise patently improper.
12

Case l:06-cv-01202-LGS-HBP Document 338 Filed 09/17/15 Page 13 of 14

14).

Aw

Plaintiff will receive the balance of the funds she deposited, if any, after this case
is closed and all appeals have been exhausted.

(5)

Plaintiff will be required to deposit additional funds on terms to be specified, if the
original $10,000 is exhausted before the conclusion of the case.

(6)

If the initial $10,000 deposit is not made within one year of the date of this
Opinion and Order, then the case will be dismissed.

(V)

Plaintiff shall submit all proposed filings to the special master and obtain a written
statement from the special master as to whether the proposed filing is frivolous or
otherwise patently improper (“Approval for Filing”).

(8)

Plaintiff s ECF filing privileges are revoked and she must make all filings through
the Pro Se Office.

(9)

Plaintiff may submit a proposed submission to the Pro Se Office for filing only if
the submission is accompanied by an Approval for Filing.

(10)

The Pro Se Office shall reject any proposed submission by or on behalf of Plaintiff
that is not accompanied by an Approval for Filing. The Pro Se Office shall file on
ECF any proposed submission by or on behalf of Plaintiff that is accompanied by
an Approval for Filing.

IV.

CONCLUSION
For the foregoing reasons, the Report’s recommendation that Plaintiff be sanctioned by

requiring her to pay $20,000 to the Clerk of Court is REJECTED, and the sanctions outlined in

13

Case l:06-cv-01202-LGS-HBP Document 338 Filed 09/17/15 Page 14 of 14

ni|t-pKPr^H p^raarapir^-tliTnii-pfi-Hf-abQV-e-ar-eJniP-Qsed. The remainder of the Report is

Ml

ADOPTED.
The Clerk of Court is respectfully directed to close Docket Numbers 223, 224 and 294.
SO ORDERED.
Dated: September 17, 2015
New York, New York
Lort^a G. Schofield
United States District Judge

14

9

.

<^ctac x.uu-uv-uxiiuji-LUO-nDr

L/UL.UI 1 ICI II OX

nieu

s

UNITE D~~STATE'S' ^i-STR-IGT—CO.URT_ _
SOUTHERN DISTRICT OF NEW YORK

x
f

f.

AMY R. GURVEY,

h

USDCSONY
DOCUMENT
ELECTRON!GAXXY JELLED
DOC #:____
DATE FILED:

Plaintiff,

I;

06 Civ. 1202
(BSJ)(THK)

;

v.
Order

r
;
>:P
!:

COWAN, LIEBOWITZ & LATMAN, PC, CLEAR
CHANNEL COMMUNICATIONS, INC., LIVE
NATION, INC., INSTANT LIVE CONCERTS,
LLC, NEXTICKETING, INC., WILLIAM
BORCHARD, MIDGE HYMAN, BAILA CELEDONIA,
CHRISTOPHER JENSEN, DALE HEAD, STEVE
SIMON, MICHAEL GORDON, and SUSAN
SCHICK,
Defendants.
—x

!

BARBARA S. JONES
UNITED STATES DISTRICT JUDGE

Plaintiff's attorney's amended motion to withdraw (Dkt. 79)
as counsel is GRANTED.
SO ORDERED:
l?
■ i

BARBARA S. JONES
UNITED STATES DISTRICT

i
i

Dated:

New York, New York
September 21, 2010

Case l:06-cv-01202-LGS-HBP Document 80 Filed 09/20/10 Page 1 of 4

r
i

i-

UNITED STATES DISTRICTCOUHT"
SOUTHERN DISTRICT OF NEW YORK
x
AMY R. GURVEY,
Plaintiff,

i!
I
f
I
I'
f

f:

USDC SONY
DOCUMENT
ELECTRONICALEYTTEED
DOC #:
DATE
06 Civ. 1202
(BSJ)(THK)

v.
Order
COWAN, LIEBOWITZ & LATMAN, PC, CLEAR
CHANNEL COMMUNICATIONS, INC., LIVE
NATION, INC., INSTANT LIVE CONCERTS,
LLC, NEXTICKETING, INC., WILLIAM
BORCHARD, MIDGE HYMAN, BAILA CELEDONIA,
CHRISTOPHER JENSEN, DALE HEAD, STEVE
SIMON, MICHAEL GORDON, and SUSAN
SCHICK,
Defendants.
x

?

BARBARA S. JONES
UNITED STATES DISTRICT JUDGE
Plaintiff Amy R. Gurvey moves for re-argument and
reconsideration of the Court's April 24, 2009 order.

Plaintiff

argues, first, that the Court overlooked the fact that
:

Plaintiff's original complaint was filed in February 2006,
which, based on the accrual date of May 2003, was -within the

l<
f

three year statute of limitations period.

Plaintiff never

argued during the motion to dismiss briefing, however, that the
original complaint should serve as the operative pleading for
a

purposes of the statute of limitations.1

Because a motion for

1 Because Plaintiff never argued that the original complaint should serve as
tne operative pleading for purposes of the statute of limitations, the Court
specifically noted in the April 24, 2009 order that Plaintiff "failed to
t
!:

n_>r~

V V

i

reconsideration

M \

UUIUII Id II OU

r-ueu uy/zu/iu

cannot assert new arguments .

not before the court on the ori^±Tratirmmtrt-an3n-r
does not warrant reconsideration.

1

ft

.

page z or 4

Asl

. which were

-teh-i-s—ajjgjjmanJt.

See, e.g., Chenensky v. New

York Life Ins. Co., Mo. 07 Civ. 11504(WHP), 2010 WL 2710586, at
*1 (S.D.N.Y. June 24, 2010)

(citations omitted).

Plaintiff contends, second, that the Court misapprehended
Plaintiff's allegations regarding the accrual date of her claims
for misappropriation and unfair competition.

Plaintiff claims

that her third amended complaint included factual allegations
*

that the named partners from Cowan, Liebowitz & Latman, PC

I
("CLL") shared Plaintiff's trade secrets with Clear Channel, who
used Plaintiff's trade secrets no earlier than in the fall of
2005.

But, as the April 24, 2009 order explains, Plaintiff's

third amended complaint describes "a misappropriation that
occurred and was disclosed some time between
and . .

. May 5, 2003."

(April 24, 2009 order, at 5. )

a defendant " \ becomes liable .

.

. upon disclosure,

Architectronics, Inc. v. Control Sys
433 (S.D.N.Y.

-.996)

. early 2002

•.

t

f

tt

Because
see

Inc., 935 F. Supp. 425,

(citation omitted) , the Court found that

May 5, 2003 was the accrual date for Plaintiff's
misappropriation and unfair competition claims.

Plaintiff has

pointed to no new information that. the Court overlooked that
establish that the earlier Complaint should operate to bring these claims
against these Defendants within the applicable period."
(April 24 2009
order, at 5 n.6 .)
'

2
t

OclSfci i;UO"CV-UUU^-L'jO-nDr

uuuuiiiciil uu

mcu uc//^uixu

i'

warrants altering the April 24, 2009 order.

t

Chenensky,

See,

»

o ui -t

ksie . g ■,

j

Accordingly, Plaintiff's second argument also does not warrant
!;

t
i

s

reconsideration.
Plaintiff's final argument is that the Court overlooked

t

well pleaded allegations of acts constituting legal malpractice

i

and breach of fiduciary duty, and Plaintiff's description of

*
l

i!

damages and causation,

Plaintiff merely reasserts, however,

h

I

that CLL committed legal malpractice and breached its fiduciary

I

duty by misappropriating Plaintiff's trade secrets to Clear

t

i

*

Channel, by failing to properly advise her, and by having an

r
*

f

improper conflict of interest that damaged Plaintiff,

The Court

considered and rejected these allegations in the April 24, 2009
order.

Plaintiff also fails to offer any new authority or data

that the Court overlooked regarding Plaintiff's description of
damages and causation that warrants altering the April 24, 2009
order.

See, e.g., id.

(citation omitted).

Thus, Plaintiff's

third argument also does not support reconsideration.
For the reasons provided above, Plaintiff's motion for re­
argument and reconsideration (Dkt. 68) is DENIED.
6i!
f

ii
f
3

5

Case l:06-cv-01202-LGS-HBP Document 80 Filed 09/20/10 Page 4 of 4
?

t

t

£

.SO ORDERED:

ft

17
BARBARA S. JONES
UNITED STATES DISTRICT JUDGE

\

t

Dated:

New York, New York
September 20, 2010

I
f;
E

;
t

i

!
5

f

i

4

Case l:06-cv-01202-LGS-HBP Document

WSBCPS0W Page 1 of 1

document

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK

M

El l'( TUT TCAII .V-Fjr-EDOC it
DATE Fi£,-J:
y/z?/

X

AMYR. GURVEY,
Plaintiff,

06 CIVIL 1202 (BSJ)

-against-

JUDGMENT

COWAN, LIEBOWITZ & LATMAN, P.C., CLEAR
CHANNEL COMMUNICATIONS, INC.,
INSTANT LIVE CONCERTS, LLC, LIVE NATION,
INC., NEXTICKETING, INC., DALE HEAD,
STEVE SIMON, and DOES I-VIE, INCLUSIVE
Defendants.
X

Whereas the above-captioned action having come before this Court, and the matter having
come before the Honorable Barbara S. Jones, United States District Judge, and the Court, on April
23,2009, having rendered its Opinion and Order dismissing plaintiffs claims against all defendants,
it is,
ORDERED, ADJUDGED AND DECREED: That for the reasons stated in the
Court's Opinion and Order dated April 23, 2009, plaintiff’s claims against all Defendants are
dismissed; accordingly, the case is closed.
Dated: New York, New York
April 27,2009

J. MICHAEL McMAHON
Clerk of Court
BY:

Z
Deputy Clerk

i

THIS DOCUMENT WAS ENTERED
ON THE DOCKET ON___________

Case l:06-cv-01202-LGS-HBP Document 66 Filed 04/24/09 Page 1 of 15

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
X
AMY R. GURVEY
Plaintiff,
v.

06 Civ. 1202
Opinion & Order

COWAN, LIEBOWITZ & LATMAN, PC.,
CLEAR CHANNEL COMMUNICATIONS, INC
INSTANTLIVE CONCERTS, LLC, LIVE
NATION, INC., NEXTICKETING, INC.
DALE HEAD, STEVE SIMON, and DOES
I-VIII, INCLUSIVE,
Defendants.

USDC SDNY
DOCUMENT
electronically
X

BARBARA S. JONES
UNITED STATES DISTRICT JUDGE

FILED

DATE Ell FT): *-MnUtML

Plaintiff Amy Gurvey brings claims of misappropriation (trade secrets; ideas,
labor or skill), Sherman Act and state antitrust violations, Lanham Act violations,
interference with prospective economic relations, tortious interference with contract,
legal malpractice, breach of fiduciary duty, and unjust enrichment against her former
employer, Cowan, Liebowitz & Latman, P.C. (“CLL”), named CLL partners (“CLL
Partners”), and various entities affiliated with Clear Channel Communications (“CCC
Defendants”)1.
BACKGROUND2
Plaintiff was employed as Of Counsel to CLL pursuant to an employment
agreement dated January 15, 2002. (Third Amended Complaint (“TAC”) f29). At that
Although two entities affiliated with the Clear Channel family have been released from this case after
The facts described are taken from Plaintiffs’ Complaint and are assumed to be tme for the purposes of
this motion only.

Case l:06-cv-01202-LGS-HBP Document 66 Filed 04/24/09 Page 2 of 15

time, CLL agreed to represent the Plaintiff before the US Patent and Trademark office
(“USPTO”) to file Provisional Patent Applications (“PPA”s) for inventions developed by
Plaintiff prior to joining CLL. (TAC H28, 33).
Plaintiffs inventions included business plans to edit, package and distribute live
recordings of live music events, as well as electronic ticketing methods related to these
recordings. (TAC ffl|28, 33.)
Shortly after beginning at CLL, Plaintiff presented her projects, business plans,
and inventions at the firm’s monthly partners’ conference. (TAC 134).
After the meeting a CLL Partner told Plaintiff that the her business plans would
be of significant interest to the firm’s client CCC. (TAC 136). This same CLL Partner
also told Plaintiff that he preferred to have her as a client of CLL rather than as Of
Counsel. (TAC 137.)
In early May 2002, Plaintiff was notified that she would no longer be employed
Of Co unsel , but that CLL continued to have interest in the subject matter of her pate
nts
and would file the Plaintiffs PPA’s before the USPTO. (TAC 143). On May 22, 2002
and May 24, 2002, CLL filed two patents with the USPTO naming the plaintiff as sole
inventor and CLL as attorneys of record. (TAC 144).
In August 2002, Plaintiff returned from a business trip to find that she had been
locked out of her office. (TAC 147)
On or about February 16, 2003, the Plaintiff received notification from the
USPTO that CLL had withdrawn as the attorney on one of her patents because of a
conflict of interest. (TAC 150).

Case 1:06-cv-01202-LGS-HBH uocumem

oo

rncu

c--ti

w w/

,

vavj-

—

/W7

In March 2003, the CCC affiliated entity InstantLive posted ads/statements on
their website announcing a new program
recordings. (TAC H55).
describing InstantLive.

On May 5, 2003, The New York Times published an article
Plaintiff alleges that this description mirrored her business

models for the onsite distribution
were also

that would allow concert-goers to purchase its

of live recordings at concerts. (Band members of Phish

interviewed for the article and identified their interest in this new product.

(TAC 1152). A member of Phish is married to a CLL attorney.)
In Fall 2005

CCC formed defendant LiveNation, which acquired defendant

InstantLive. (TAC 1157).
On June 5, 2006, Plaintiff filed an Amended Complaint, which was served on the
CLL law firm and the CCC Defendants on June 16, 2006.3 The named CLL partners
were added as parties to the TAC, filed on March 4, 2008.4
STANDARD OF REVIEW
Rule 12(b)(6) of the Federal Rules of Civil Procedure provides for dismissal of a
complaint that fails to state a claim upon which relief may be granted. “In ruling on a
motion to

dismiss for failure to state a claim upon which relief may be granted, the court

is required to accept the material facts alleged m the complaint as true. Frasier v.
cVuon,I Klee. Co.. 930 F.2d 1004, 1007 (2d Cir. 1991). The court is also required to read
a complaint generously, drawing all reasonable inferences from its allegations in favor of

3 An earlier Complaint was filed on February 15, 2006, but was never served.
4 It is unclear whether the individual partners were ever served with the; ^^tfs^sdfsm-ed with
Plaintiff appears to argue that constructive notice was sufficient, since the CLL firm was itselt seneowi
the Amended Complafnt on June 5, 2006. The Court need not, however, reach the constructive notice
argument, since ttuf relevant claims are time-barred whether they are measured from the Amended
Complaint or the TAC.

Case l:06-cv-01202-LGS-HBP Document 66 Filed 04/24/09 Page 4 of 15

Ms

the plaintiff. California Motor Transp. Co. v. Trucking Unlimited. 404 U.S. 508 ,515
(1972).
“While a complaint attacked by a Rule 12(b)(6) motion to dismiss does not need
detailed factual allegations, a plaintiffs obligation to provide the grounds of his
entitlement to relief requires more than labels and conclusions, and a formulaic recitation
of the elements of a cause of action will not do.” Bell Atlantic Corn, v. Twnmhly 550
U.S. 544, -

, 127 S.Ct. 1955, 1964 (2007) (internal quotation marks, citations, and

alterations omitted). A plaintiff must assert “enough facts to state a claim to relief that is
plausible on its face.” Id, at 1974. This “plausibility standard” is a flexible one,
“obliging] a pleader to amplify a claim with some factual allegations in those contexts
where such amplification is needed to render the claim plausible.” Iqbal v. Hastv. 490
F.3d 143, 157-58 (2d Cir. 2007), cert, granted, 128 S.Ct. 2931 (2008).
DISCUSSION
A. Misappropriation Claims
i. Misappropriation of Trade Secrets
The date upon which a cause of action for misappropriation of trade secrets
begins to accrue depends on the nature of the misappropriation alleged: “If a defendant
misappropriates and discloses a trade secret, he becomes liable to plaintiff up on
disclosure. On the other hand, if the defendant keeps the secret confidential, yet makes
use of it to his own commercial advantage, each successive use constitutes a new,
actionable tort for the purpose of the running of the Statute of Limitations.”
Architectronics. Inc, v. Control Systems, Inc., 935 F.Supp. 425, 433 (S.D.N.Y. 1996)
(citing Lemelson v. Carolina Enterprises. Tnr. 541 F.Supp. 645, 659 (D.C.N.Y. 1982).

Case l:06-cv-01202-LGS-HBP Document 66 Filed 04/24/09 Page 5 of 15

Ks^i

Plaintiff here has alleged the former. The TAC describes a misappropnationThai
occurred and was disclosed some time between Plaintiffs CLL presentation in early 2002
and the May 5, 2003 New York Times article that allegedly revealed (in the guise of
CCC’s own venture) Plaintiffs “entire confidential business models for the onsite
distribution of live music at concerts” (TAC ffl[34, 52)f The statute of limitations for this
cause of action is three years. Plaintiffs Amended Complaint (the first to be served on
Defendants) was not filed until June 5, 2006.6 The claim was therefore brought more
than three years subsequent to the disclosure of the allegedly misappropriated trade
secret. Plaintiffs claim is time-barred and is DISMISSED as against all Defendants.
il. Unfair Competition / Misappropriation of Ideas. Labor, or Skill
Under New York law, a claim for unfair competition claim premised on
misappropriation and unauthorized use is subject to a three-year statute of limitations
under N.Y. C.P.L.R. § 214. Sporn v. MCA Records, Inc., 58 N.Y.2d 482, 488 (1983). In a
case such as this, where the unfair competition claim is identical to a misappropriation
claim and where the extent of the misappropriation alleged is more akin to a wholesale
conversion rather than a mere interference with Plaintiffs alleged property interest, the
statute of limitations period is identical to that of a claim for misappropriation of trade
secrets. See Greenlight Capital, Inc, v. GreenLieht (Switzerland) S.A.. No. 04-cv-3136,
2005 WL 13682, at*7 (S.D.N.Y. 2005); Opals on Ice Lingerie v, BodvLines. Inc.. 425
F.Supp.2d 286, 296 -297 (E.D.N.Y. 2004) (“Defendant's unlawful actions culminated in
numerous products it designed, sold and manufactured that are ‘substantially similar’ to
5 Plaintiff argues that the May 5 article did not “disclose” the misappropriated trade secret, but only
“addressed its practical application.” (Opp’n at 11.) However, the TAC itself is clear in stating that
disclosure of Plaintiff s “entire confidential business models” occurred on in that article, on that date.
6 Plaintiff has failed to establish that the earlier Complaint should operate to bring these claims against
these Defendants within the applicable period.

Case l:06-cv-01202-LGS-HBP Document 66 Filed 04/24/09 Page 6 of 15

those of [Plaintiff],... which were generally unavailable in the marketplace’ during the
time period m which [Plaintiff] shared samples with [Defendant]
allegations of misappropriation amount to more than
designs and, as such, constitute a “taking”

• • - As in Spom. these

mere interference with [Plaintiffs]

or conversion of plaintiffs property.”);

LinkCo, Inc, v. Fujitsu Ltd, 230 F.Supp.2d 492, 501 (S.D.N.Y. 2002).
Therefore, Plaintiffs claim began to run on than May 5, 2003. Defendants were
not notified of her claims until the filing of the Amended Complaint

on June 5, 2006, and

its service on June 16, 2006. This claim is therefore time-barred and DISMISSED as
against all Defendants.
B. Sherman Act and State Antitrust
Plaintiff claims that the CCC Defendants violated federal
and that CLL and its partners aided and abetted those antitrust

and state antitrust laws,

violations. Plaintiff has

failed to adequately plead these causes of action.
In order to state a claim under Section Two of the Sherman Act,7 Plaintiff must
allege: (1) the possesston of monopoly power in the relevant market and (2) the willful
acquisition or maintenance of that po wer

as distinguished from growth or development as

a consequence of a supenor product, business acumen, or historic accident." Eastman
Kodak Co. v. Image Technical Serve , Inc., 504 U.S. 451 (1992) (internal quotation
marks and citation omitted).
The TAC describes various business practices implemented by the CCC
Defendants, speculating as to various concert recording
£

“vot

arrangements, describing
** - ■*. -an-of the

state antitrust statutes and provisions Plaintiff refers to '
1
&°m tHe TAC precisely which
to this motion, however, there do not appear to be anv suh^nt'0" J f/ ° ^ the part,es’ PaPers Pursuant
claims brought by Plaintiff.
PP
"y substantlve differences amongst the various antitrust

Abo

Case l:06-cv-01202-LGS-HBP Document 66 Filed 04/24/09 Page 7 of 15

k(p I
corporate structures, and referring vaguely to supposed admissions of “monopoly”
control. (TAC111128-130.) These practices, as alleged, do not describe the holding or
wielding of monopoly power~“the power to control prices in the relevant market or to
exclude competitors,’ Aspen Skiing Co. v. Aspen Highlands Skiing Corp.. 472 U.S. 585,
596, n. 20, 105 S.Ct. 2847, 86 L.Ed.2d 467 (1985)-and so do not provide a basis for
Plaintiff s conclusory pleadings of antitrust violations.
Similarly, Plaintiff has made little attempt to define the market within which
CCC’s monopoly supposedly exists, alleging only that Defendants have made certain
efforts to operate within “the relevant live concert venue market in the United States”
(TAC para. 128) or the “US pop concert venues and radio markets.” (TAC 1129.). The
relevant market on claims of antitrust violation involves the specification of its
dimensions, its product, geographic and time dimensions. Yankees Entertainment and
Sports Network, LLC v. Cablevision Systems Corp., 224 F.Supp.2d 657, 666 (S.D.N.Y.
2002) (citing 2 Earl W. Kintner, Federal Antitrust Law § 12.2 (1980), and must provide a
factual basis for the Court’s evaluation of the marketplace in light of “the realities of
competition” Balaklaw v. Lovell, 14 F.3d 793, 797 n. 9 (2d Cir.1994) (quotation
omitted);see United States v. E.I. du Pont de Nemours & Co.. 351 U.S. 377 (1956)Yellow Page Solutions, Inc, v. Bell Atlantic Yellow Pages Pn No. 00-cv-5563 ,2001
WL 1468168, at *12 (S.D.N.Y. Nov. 19, 2001).
Plaintiff has failed to adequately plead these elements and her claims of antitrust
violations, federal and state, are hereby DISMISSED as against all Defendants.
C. Lanham Act

Filed 04/24/09 Page o u. w
' Case l:06-cv-01202-LGS-HBP Document 66

Section

-43-(-a-)-of-the47anham-Ac.t_prpv ides tWO

Ab2-

grounds upon which a plaintiff

false designation and false advertising. 15 U.S .C. § 1125(a)(1).
raay assert a claim:
Plaintiff alleges that Defendant misrepresented various products
and argue

as their own

s that such misrepresentations constitute false advertising

ately described as one for “passing off,
Plaintiffs claim, however, is more accur
TAC identifies the May 3,2003 New York Times
as her allegations make clear. The
various website advertisements and press releases (TAC
article (TAC 152), as well as
logy and a business plan allegedly similar to those
1155-59) that describe techno
developed by Plaintiff. While Plaintiff attemp
statements o
claim is ai

ts to label this as “false and misleading

f fact in advertising” (TAC 183.), the

pleadings make clear that Plaintiffs

med at Defendants’ holding out as their own

that which is allegedly

Plaintiffs.'
> is not properly brought under the Lanham Act,
Plaintiffs claim of “passing off
“[A]s used in the Lanham Act, the phrase ‘origin of
as it disputes the “origin” of an idea.
entity that originated the ideas or
goods’ is.. .incapable of connoting the person or
communications that ‘goods' embody or contain. Such an extension would not only
ord with the history and purpose of the Lanham
stretch the text, but it would be out of acc
Twentieth Century Fox Film
Act and inconsistent with precedent. ” Hastar Corp, v
Corn., 539 U.S. 23, 32

, 123 S.Ct. 2041,2047 (U.S. 2003).
authorship of an idea simply does not amount to the

A failure to attribute the
misrepresentation of the “nature charac

teristics, qualities, or geographic origin

of. • -goods, services, or commercial activities” as re

quired under section 43(a) of the

.... tap kin fact entitled “Defendants Live Nation and Clear
■«££££$!?££ “nL Secrets Misappropriated from Haim®.” (TAC S.H.,

Case l:06-cv-01202-LGS-HBP Document 66 Filed 04/24/09 Page 9 of 15

Lanham Act. See Antidote International Films. Inc, v. Bloomsbury Publishing. PLC. 467
F.Supp.2d 394 (S.D.N. Y. 2006) (dismissing false advertising claim alleging
misrepresentations relating to authorship of a novel); see also Thomas Publishing Co..
LLC v. Technology Evaluation Centers. Inc.. No. 06 Cv 14212(RMB), 2007 WL
2193964 (S.D.N.Y. July 27, 2007) (dismissing false advertising claim “premised upon
the assertion that Defendant passed off Plaintiffs work as its own,” where defendant
misrepresented itself as the developer, creator or owner of materials comprising a
software directory, because “a failure to attribute authorship to Plaintiff does not amount
to misrepresentation of ‘the nature, characteristics, qualities or geographic origin’ of...
[Defendant's] goods.”).
Plaintiffs allegations do not describe a violation of the Lanham Act and this
claim is therefore DISMISSED as against all Defendants.
D. Tortious Interference with Prospective Economic Relations
In order to state a claim for tortious interference with prospective economic
relations under New York law, a plaintiff must allege: “(1) that [she] had a business
relationship with a third party; (2) the defendant knew of that relationship and
intentionally interfered with it; (3) the defendant acted solely out of malice, or used
dishonest, unfair, or improper means; and (4) the defendant's interference caused injury
to the relationship.” Friedman v. Coldwater Creek. Inc.. No. 08-cv-979, 2009 WL
932546, at * 1 (2d Cir. April 8, 2009); Kirch v. Liberty Media Corn.. 449 F.3d 388, 400
(2d Cir.2006). The New York Court of Appeals has explained that, “as a general rule, a
defendant's conduct must amount to a crime or an independent tort” in order to amount to
tortious interference with a prospective economic advantage. Carvel Corp. v. Noonan. 3

Case l:06-cv-01202-LGS-HBP Document bb Hiea U4/Z4/uy Mage

iu ot id

A(A

N.Y.3d 182,190 (2004). A defendant who has not committed a crime or independent tort
or acted solely out of malice may nevertheless be liable if he has employed “wrongful
means.

31 Itt

Wrongful means’ include physical violence, fraud or misrepresentation, civil

suits and criminal prosecutions,” Guard-Life Coro, v. S. Parker Hardware Mfg. Corp., 50
N.Y.2d 183 (1980) (quotation and citation omitted) and ‘“extreme and unfair’ economic
pressure.” Carvel, 3 N.Y.3d at 190.
Here, Plaintiff has alleged that she “lost the opportunity to complete a pri vate
placement offering of securities to be issued by her own company which was to have
served as seed money for the development of technologies utilizing her trade secrets and
inventions.” (Compl. para. 146.) In addition to the evident vagueness of this pleading,
Plaintiff neglects to allege that Defendants knew of this private placement opportunity
and wrongfully interfered with it.9 The allegations therefore do not state a claim for
tortious interference with prospective economic relations and must be DISMISSED as
against all Defendants.
E. Tortious Interference with Contract (against the CLL Defendants)
In New York, the statute of limitations for a tortious interference with contract
claim is three years. See N.Y. C.P.L .R. § 214(4); Norris v. Grosvenor Marketing Ltd.,
803 F.2d 1281, 1287 (2d Cir.1986). The TAC describes a series of events occurring in
early 2002, culminating in the alleged usurpation of Plaintiff as counsel to Legend Films.
(TAC 1129(f).) Defendants were made aware of this claim for the first time in the
Amended Complaint filed on June 5,2006 and served on June 16,2006. The three year

9 Although the parties further submit arguments concerning the statute of limitations applicable to this
cause of action, the TAC’s allegations on this cause are too vague to determine when, precisely, Plaintiff
alleges that the tortious interference occurred. Because this same vagueness disposes of Plaintiffs claim
under the Rule 12(b)(6) motion, the Court need not make a final conclusion on the issue of timeliness.

Case 1.06-cv-01202-LGS-HBP Document 66 Filed 04/24/09 Page 11 of 15

MS'
statute of limitations on this claim has therefore lapsed, and the claim is hereby
DISMISSED.
Moreover, even if the claim were not time-barred, it would be subject to dismissal
pursuant to Rule 12(b)(6), for failure to state a claim.
To state a claim for tortious interference with contract under New York law, a
plaintiff must allege: (1) “the existence of a valid contract between the plaintiff and a
third party ; (2) the “defendant's knowledge of the contract”; (3) the “defendant's
intentional procurement of the third-party's breach of the contract without justification”;
(4) “actual breach of the contract”; and (5) damages. Kirch v. Liberty Media Corp.. 449
F.3d 388, 401-02 (2d Cir.2006) (quoting Lama Holding Co. v. Smith Bamev Inc 88
N.Y.2d 413, 646 N.Y.S.2d 76, 668 N.E.2d 1370, 1375 (N.Y.1996)). FN21

In addition, a

plaintiff must assert, with respect to each defendant, that the defendant's acti
actions were the
“but for” cause of the alleged breach-in other words, that there would not have been a
breach but for the activities of the defendant. Sharma v. Skaarup Ship Mgmt, Corp. 916
F.2d 820, 828 (2d Cir.1990) (citing Special Event Entm't v. Rockefeller Ctr Tnr- 458
F.Supp. 72, 78 (S.D.N.Y.1978)).
Plaintiff has alleged that “shortly after [she] became ‘of counsel’ to CLL, CLL
attorney Mark Montague was introduced to plaintiffs client, Legend Films, whom
plaintiff had also served as General Counsel up to 2002. CLL orchestrated plaintiffs
ouster from Legend and induced Legend to renege on its obligation to pay plaintiff for
her services.” (TAC para. 29(f).) It is insufficient to merely state, without more, that
Defendants “orchestrated” Plaintiffs ouster. “ [T]he law requires some factual specificity
m pleading tortious interference.” World Wide Commc'ns, Tnr

v. Rozar. No. 96 Civ.

Case l:06-cv-01202-LGS-HBP Document 66 Filed 04/24/09 Page 12 of 15

1056, 1997 U.S. Dist. LEXIS 20596, at *7, 1997 WL 795750, (S.D.N.Y. December 30,
1997) (citation omitted). As such, Plaintiff has failed to adequately plead that the
Defendants intentionally procured, without j ustification, the breach in question, and
Plaintiffs claim on this issue is DISMISSED.
F. Legal Malpractice (against the CLL Defendants)
“To state a claim for legal malpractice under New York law, a plaintiff must
allege: (1) attorney negligence; (2) which is the proximate cause of a loss; and (3) actual
damages.” Achtman v. Kirby. Mclnemev & Squire. LLP. 464 F.3d 328, 337 (2d
Cir.2006) (citing Prudential Ins. Co. of Am. v. Dewey. Ballantine, Bushbv. Palmer &
Wood. 573 N.Y.S.2d 981, 986 (App.Div.1991)).
In order to establish negligence in a legal malpractice case, a plaintiff must allege
that the attorney's conduct “fell below the ordinary and reasonable skill and knowledge
commonly possessed by a member of the profession.” Achtman, 464 F.3d at 337 (quoting
Grago v. Robertson. 49 A.D.2d 645, 370 N.Y.S.2d 255 (N.Y.App.Div.1975)). “A
complaint that essentially alleges either an error of judgment or a selection of one among
several reasonable courses of action fails to state a claim for malpractice.. .Generally, an
attorney may only be held liable for ignorance of the rules of practice, failure to comply
with conditions precedent to suit, or for his neglect to prosecute or defend an action.”
Achtman. 464 F.3d at 337 (quotations omitted) (citing Rosner v. Perrv. 65 N.Y.2d at 738,
492 N.Y.S.2d 13, 481 N.E.2d 553 (NY 1985); Bernstein v. Qppenheim & Co.. 160
A.D.2d 428, 430, 554 N.Y.S.2d 487 (1990)).
Here, Plaintiff offers only vague and non-actionable challenges to CLL’s legal
representation. Plaintiff first pleads that CLL “failed to protect and safeguard her trade

Case l:06-cv-01202-LGS-HBP Document 66 Filed 04/24/09 Page 13 of 15

M7

secrets.” TAC 11120(1). This allegation appears to refer either to the presence of nonattomey CLL employees at the initial presentation of Plaintiff s inventions or to the
misappropriation at the heart of Plaintiff s TAC. However, neither instance is premised
on anything more than speculation, and neither presents a challenge to the actual quality
°f CLL’s legal representation Plaintiff also alleges that CLL “failfed] to properly advise
[her] with respect to the opportunities for commercial exploitation of [her] inventions and
trade secrets” (TAC 11120(2)). This allegation again does not address CLL’s legal
representation and merely challenges the “selection of one among several reasonable
courses.” Finally, Plaintiff alleges that CLL failed to eliminate a confl ict of interest to its
representation of Plaintiff TAC 1fl[120(3) and (4). Because this allegation includes no
detail, even m speculation, as to the supposed conflict, the allegation does not provide a
basis for a malpractice claim.
Moreover, the TAC fails to identify the precise damages suffered or how the
Defendant’s legal representation of her actually caused these damages. A plaintiff must
properly plead that, “‘but for’ the attorney's conduct the client would have prevailed in
the underlying matter or would not have sustained any ascertainable damages.”
Irautenberg v. Paul, Weiss. Rifkind. Wharton & Garrison. T I P No. 06 Civ.
1421 l(GBD), 2007 WL 2219485, *3 (S.D.N.Y. Aug. 2, 2007) (citing Weil Gotshal &
Manges v. Fashion Boutique of Short Hills. 780 N.Y.S.2d 593, 596 (2004)).
“Notwithstanding counsel's purported negligence, the client must demonstrate his or her
own likelihood of success; absent such a showing, counsel's conduct is not the proximate
cause of the injury. Nor may speculative damages or conclusory claims of damage be
basis for legal malpractice.” Russo v. Feder, Kaszovitz, Isaacson. Weher. Skala & Bass,

Case l:06-cv-01202-LGS-HBP Document 66 Filed 04/24/09 Page 14 of 15

LLP, 301 A.D.2d 63, 67, 750 N.Y.S.2d 277 (N.Y.App.Div.2002). Seealso Morgan,
Lewis & Bockius. LLP v. rouvDigital.com, Inc., 2007 N.Y. Slip Op 50149U, at 6
(N.Y.Misc.2007). The TAC fails to allege that CLL’s legal representation constitutes
‘but for’ causation of some ascertainable and actionable damage.
For these reasons, PlaintifFs claim of legal malpractice against the CLL
Defendants is DISMISSED.
G. Breach of Fiduciary Duty ( against the CLL Defendants)
To state a claim for breach of fiduciary duty in New York, “plaintiff must allege
three elements: (1) the existence of fiduciary relationship; (2) knowing breach of a duty
that relationship imposes; and (3) damages suffered.’ Nay ex. rel. Thiele v. Merrill
Lynch, Pierce. Fenner & Smith, Inc., No. 05 Civ. 10264, 2006 WL 2109467, at 6
(S.D.N.Y. July 25, 2006) (quoting Carruthes v. Flaum, 388 F.Supp.2d 360: 380
(S.D.N.Y.2005)) (internal quotation marks omitted).
Here, it appears that the same set of speculative allegations that comprised the
legal malpractice claim is also relied upon for Plaintiff s fiduciary duty claim. As
discussed above, the TAC does not identify with any more than broadly-worded
speculations what duty was breached or what damage was caused by that breach.
This claim is hereby DISMISSED.
H. Unjust Enrichment
In order to state a claim for unjust enrichment, “plaintiff must establish 1) that the
defendant benefited; 2) at plaintiffs expense; and 3) that ‘equity and good conscience’
require restitution.’’ Kave v. Grossman. 202 F.3d 611, 616 (2d Cir.2000). (citing
Dolmetta v. Uintah Nat'l Corp., 112 F.2d 15, 20 (2d Cir. 1983)). As with her other

-

vxi.u^-L'OOTlDr

document 66 Filed 04/24/09 Page 15 of 15

J\b°[
claims, Plaintiff has provided only assertion and speculation

as to the benefit that was

taken from her by Defendants. Even under the low threshold that plaintiffs

must meet

under Rule 12(b)(6), the unjust enrichment claim must be DISMISSED
as against all
Defendants.
H. Accountin'
Plamtiff attempts to state a claim for "accounting." “Accounting" is a remedy
available in certain circumstances, not a claim

itself. That cause of action is therefore

DISMISSED as against all Defendants.
CONCLUSION
Plaintiff’s claims against all Defendants are hereby DISMISSED

• The Clerk of

Court is hereby directed to close this c ase.

SO ORDERED:

y

d

') ._...
•—:<J .

Barba a S. Jones
UNITED STATES DISTRICT JUDGE
Dated;

New York, New York
April 23, 2009

Case 1.06-cv-01202-LGS-HBP Document 65

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
X
AMY R. GURVEY

Filed 03/17/09 Page 1 of 9

USDCSDNY—-------------DOCUMENT
ELECTRONICALLY FILED
DOC #:
, ,
...
jj DATE FILED:
L

Plaintiff,
v.
COWAN, LIEBOWITZ & LATMAN, PC. ,
CLEAR CHANNEL COMMUNICATIONS, INC. ,
INSTANTLIVE CONCERTS, LLC, LIVE
NATION, INC., NEXTICKETING, INC.
DALE HEAD, STEVE SIMON, and DOES
I-VI11., INCLUSIVE,
Defendants.

06 Civ. 1202
Opinion & Order

--X

BARBARA S. JONES

UNITED STATES DISTRICT JUDGE

Defendants Clear Channel Communications, Inc. (“Clear Channel”) and Live
Nation, Inc. (“Live Nation”) mo ve to dismiss Plaintiff Amy Gurvey’s claims against
them for lack of personal jurisdiction. That motion

is GRANTED.

BACKGROUND
Plaintiff, m its Third Amended Complaint (“TAC”), has brought

seven claims

against Clear Channel, Live Nation, and various other Defendants. Plaintiff alleges that
the law firm Cowan, Liebowitz and Latman, P.C.

learned of Plaintiff s (it’s client’s)

propnetary technology and confidential business models and then improperly and
illegally misappropriated them to Clear Channel (another client). (TAC 2,
Plaintiff alleges that Defendant Clear Channel then used and advertised
Gurvey’s confidential business model’s,

34-41.)

as its own

creating defendants Instant Live, Next Ticketing

and Live Nation for such purposes. (TAC 52-57, 78.) Plaintiff alleges also that Clear
l

1

Filed 03/17/09 Page 2 of 9

Case i:06-cv-01202-LGS-HBP Document 65

Ml

Channel used its monopoly power to exclude competitors, including plaintiff, from
entering the relevant market. (TAC 70.)
as well as claims of
Plaintiff brings claims under the Sherman and Lanham Acts,
misappropriation of tdeas, labor or *ffl. interference with prospective econonwc
relations, unJUst enrichment, and accounting. Defendants Clear Channel and Live Nat,on
move to dismiss for lack of personal jurisdicti on.

That motion is GRANTED.

discussion
ion formed under the laws of Texas, with
Defendant Clear Channel is a corporation
its principal place of business in Texas.
laws o

Defendant Live Nation is organized under the

f Delaware, with its principal place of business

in California. Both Defendants are

in subsidiaries and other
holding companies whose sole purpose is to hold stock m
companies.
evidentiary hearing concerning personal
At this point, there has been no
Prior to such a hearing, “the plaintiff need only make a
jurisdiction over the Defendants,
"all pleadings and affidavits must be construed
prima facie showing of jurisdiction, and
d all doubts must be resolved in the
in the light most favorable to [the plaintiff] an
A winder & A1 exand erServs^jnc,, 918 F.2d
[plaintiffs] favor.” LandoiiResXprp^
this standard, the TAC inadequately pleads a
1039, 1043 (2d Cir. 1990). Even under
Clear Channel and Live Nation.
basis for asserting personal jurisdiction over

!
i

I. General Jurisdiction
The TAC proposes various grounds under
personal jurisdiction over

CPLR 301 for asserting general

Defendants Clear Channel and Live Nation, but offers only

vague factual assertions in arguing how

those theories should be applied to Defendants.

2

vuot; ±.uu“ov_ui£.Uii"LvjO‘nDr

L^uuunitfiii oo

rneu u^/xz/uy

i-^age

j

ory

Pm-

The TAC further fails to distinguish between the activities of the holding companies and
those of the subsidiaries, or to establish a ground for imputing subsidiary activities to the
holding company for purposes of personal jurisdiction.
(i) Licensed to do Business in New York
Under CPLR 301, courts may exercise general jurisdiction over a foreign
company where that company is licensed to do business in New York. In her Opposition
to this Motion to Dismiss, Plaintiff states that the moving Defendant is a “licensed
foreign corporation,” and points to an information sheet found on the New York
Department of State’s website (Exhibit A, Ciccia Declaration, Plaintiffs Response).
That information sheet, however, fails to support Plaintiffs argument—it lists a “Clear
Channel Communications Inc.” as a “domestic business corporation,” rather than a
licensed foreign corporation. Where the parties do not dispute that the moving
Defendant—“Clear Channel Communications, Inc.” (with a comma)—was formed under
the laws of Texas, it appears that Plaintiff has provided in Exhibit A information
concerning some other entity. According to the Declaration of Hamlet T. Newsom, Jr. in
support of Clear Channel’s Motion to Dismiss, Clear Channel Communications, Inc. is
not registered to do business in New York. (Hamlet Declaration, at para. 7.)
(ii) “Simple and Pragmatic ”
Under CPLR 301, courts may also exercise general jurisdiction under what parties
have referred to as the “simple and pragmatic” test, which examines several indicia,
including: (1) the existence of an office in New York; (2) the solicitation of business in
New York; (3) the presence of bank accounts or other property in New York; and (4) the
presence of employees or agents in New York. Indemnity Ins. Co. of N.Am. v. K-Line

3

Case 1-.06-CV-01202-LGS-HBP

Filed 03/17/09 Page 4 of 9

Document 65

Ms

intiff recites these factors, it
AJiulnc.,2007 WL 1732435 (S.D.
not alleged their existence in this case. What facts it does
has

offer on this count do not

ies Personal
re\ate ,0 the hold.ng corepan.es, but again to the subs,d,ar,es.

appear to
jurisdiction on

this ground, therefore, is improper.

(Hi) Activities of the Subsidiary>
holding company may be
Under CPLR 301, personal jurisdiction over a parent or
tivities of and relations to subsidiary companies. Hotter,
established by the ac

w York alone is not enough to establish the parent's

presence of a subsidiary in Ne
presence

HschaftiBeechAircrafiCor

751

in the state. y^kswagenwerki*!!Sn£S8S
Montgomery.

rd & CO-, fe No- 99 ClV-

ir. 1984); SEBS^X
F.2d 117, 120 (2d Cir
at *3 (S.D.N.Y. Sept. 30,2002). For New York courts to
9284,2002 WL 31175244
"mere department
exercise jurisdiction in this shuatton. the
^ ^ ^ m (2d c,r.
or an ag

entofthe foreign par ent. JaziniY

1998).
(a) “Mere Department ’’ Theory

!
!
I

Plaintiff argues
Chann

el (and potentially Defenda

based upon the

rted over Defendant Clear

that personal jurisdiction should be asse
nt Live Nation, if jurisdiction

al discovery were granted)

“mere department” theory.

York courts examine (1)
department” analysis, New
In conducting the "mere
subsidiary; (3) interference in the

;

e financial dependency of the
common ownership (2) th

I
|

selection of the

subsidiary's executive personn

formalities; and (4) contro

el and failure to

1 over the subsidiary's m

observe corporate

arketing and operational policies,

w York courts regard one factor as
BeechAircraft’ 751 F.2d at 120-22 ("Ne

4

Case l:06-cv-01202-LGS-HBP Document 65 Filed 03/17/09 Page 5 of 9

A7H
essential.. .and three others as importantThe essential 7actor is common ownerslhpT") “
("[N]early identical ownership interests must exist before one corporation can be
considered a department of another corporation for jurisdictional purposes."); Stratagem
Dev. Corp, v. Heron Infl N.V.. 153 F.R.D. 535, 546 (S.D.N.Y. 1994).
A simple business relationship is insufficient to impute jurisdiction. Beech
Aircraft, 751 F.2d at 120 (”[T]he presence of a local corporation does not create
jurisdiction over a related, but independently managed, foreign corporation."); Delagi v
Vpikswagenwerk A.Cx, 29 N.Y.2d 426, 432 (N.Y. 1972) ("The control over the
subsidiary's activities... must be so complete that the subsidiary is, in fact, merely a
department of the parent."). A corporate entity is a "mere department" of a parent
company where the parent's control is pervasive enough that the corporate separation is
"more formal than real." JacoMY, Felix Bloch Erben Verlag fur Buhne Film und Funk
KG, 160 F. Supp. 2d 722, 734 (S.D.N.Y. 2001).
In her Opposition to Defendants’ Motion to Dismiss, Plaintiff attempts to provide
some basis for finding that Clear Channel may be subject to personal jurisdiction under
the “mere department” theory, excerpting a 2004 decision by a District Court in

Colorado. That Court listed several factors that influenced its determination that, in that
case, Clear Channel dominated various subsidiaries (though Plaintiff does

not appear to

allege that those are the same subsidiaries at issue in this case). Plainti ff then asserts in a
footnote that, based on general statements taken from various Forms 1.0-K, the entities
here may currently share some officers, and that there is reason to believe that the
circumstances described by the District Court in Colorado have not changed. (Opp’n at 56, fn.9.) Such broad assertions are inadequate even at this stage and provide no basis for

5

^ciiifc; i;uo-uv-uiiiu^-Lbb-iibP

uocument bb

hiiea U3/1//U9

Page 6 of 9

A7sr

determining that the corporate form between Clear Channel and the relevant subsidiary
^____

»

entities is more formal than real.” Id.. In order to plead pri ma fHcicpersonaf-jurisdiotion,
the allegations in the TAC itself must discuss the actual entities in question here—Clear
Channel, Live Nation, and their subsidiaries operating in New York—and allege that the
relations between them amount to complete control under common ownership. Absent
such pleadings, this Court has no basis to assert personal jurisdiction over Clear Channel
under the “mere department” theory.
As pertains to Live Nation, Inc., Plaintiff acknowledges in her Opposition that she
has insufficiently pled the basis for a “mere department” theory of general jurisdiction,
but asks the Court for leave to engage in jurisdiction discovery. (Opp’n, 7.) Plaintiff has
made few, if any, allegations concerning the factors described in Beech Aircraft. Even at
this stage, Plaintiff has made an inadequate effort to describe the activities of the holding
company or its relations to the other entities in question here. Because the TAG does not
include allegations establishing even prima facie personal jurisdiction, this Court has no
reason to ignore the corporate form between the entities and need not order discovery on
the issue.
(b) Agency Theory
Plaintiff also argues that the holding companies, specifically Live Nation, maybe
subject to personal jurisdiction under an agency theory. A subsidiary is considered an
agent of the parent corporation if it "renders sendees that go beyond mere solicitation and
are sufficiently important to the foreign [parent] entity that the corporation itself would
perform equivalent services if no agent were available." Wiwa v. Royal Dutch Petroleum.
226 F.3d 88, 95 (2d Cir. 2000). One indicator of agency is whether the parent would be

6

Case l:06-cv-01202-LGS-HBP Document 65 Filed 03/17/09 Page 7 of 9

obliged to enter the market directly if the subsidiary wlisTabsenfbecause Therrrarket-rs- tooimportant to the parent's welfare. Ginsberg v. Gov’t Props Trust. Inc.. No. 07 Civ. 365,
2007 WL 2981683, at *7 (S.D.N.Y. Oct. 10, 2007)
Plaintiff cites statements made in Defendants’ Forms 10-K describing the
business activities of various subsidiaries, including those located in New York. The
conclusion Plaintiff hopes to derive from these forms, however, is not apparent to this
Court. Plaintiff, in her Opposition to this motion, states that if Defendant, “is really a
holding company, then the business it says, in its 10-K, it conducts must necessarily be
conducted by.. .subsidiaries.” (Opp’n at 4). However, this is not a necessary conclusion
under New York law, and more is required to establish personal jurisdiction under an
agency theory.
New' York courts examining agency look to W'hether the subsidiaries are carrying
out their own business or that of the parent. The situation of holding companies and
subsidiary entities has been discussed: "Where a holding company is nothing more than
an investment mechanism [« ] a device for diversifying risk through corporate
acquisitions [— ] the subsidiaries conduct business not as its agents but as its investments.
The business o f the parent is the business of investment, and that business is carried out
at the parent level. Where, on the other hand, the subsidiaries are created by the parent,
for tax or corporate finance purposes, to carry on business on its behalf, there is no basis
for distinguishing between the business of the parent and the business of the
subsidiaries." Bellomo v. Penn. Life Co.. 488 F. Supp. 744, 746 (D.C.N.Y. 1980); see
also Porter v. LSB Indus.. Inc.. 192 A.D.2d 205, 214-15 (N.Y. App. Div. 4th Dep’t 1993)
(defendant "is a holding company whose business is investment, which differs from the

7

Case 1.06-cv-01202-LGS-HBP Document 65 Filed 03/17/09 Page 8 of 9

kV7

-business^f^.ummit.[lhe_subAi.d i.ary^jvh ichjs d i s tri b u t i on of machine tools. The busi

ness

of the parent is carried out entirely at the parent level, and Summit cannot be deemed to
be conducting the parent's business as its agent."); Ginsberg. 2007 WL 2981683
The type of conclusory pleading found in the TAC does not adequately alleg

, at *7

e an agency

relationship and do not justify setting aside the corporate forms separating the

entities in

question. Insight Data Corp. v. First Bank Svs.. No. 97 Civ. 4896, 1998 WL 146689, at
*16 (S.D.N.Y. Mar. 25, 1998) ("Conclusory allegation of an

agency relationship.. .are

insufficient to make out a prima facie showing of personal jurisdiction

...under § 301.").

The Complaint therefore does not allege grounds for the Court to assert personal
jurisdiction over Clear Channel or Live Nation.
II. Specific Jurisdiction
Plaintiff has also failed to allege facts concerning Clear Channel’s

or Live Natin’s

“transaction] [of] business within the state.” As described above, Plaintiff has made
very little effort to distinguish between the acti vities of the holding company and those of
the subsidiaries and has failed to demonstrat e agency or other justification for ignoring
the corporate forms between entities. Plaintiff’s allegations, therefore, concerning
business transactions within New York do not link the operative facts of this case to the
holding companies themselves.
The allegations as to specific jurisdiction are insufficient to establish a basis for
exercising specific jurisdiction over Clear Channel of Live Nation.

CONCLUSION

8

Case l:06-cv-01202-LGS-HBP Document 65 Filed 03/17/09 Page 9 of 9

A7S

Defendants Clear Channel Communications, inc. and-fcrve^at-ionTJnc.jXLOiion_to
dismiss for lack of personal jurisdiction is hereby GRANTED. The Clerk of the Court is
directed to terminate the following motion: Case No. 06 Civ. 1202, docket entry 51.

SO ORDERED:

\

77
Barbara S. Jones
</
UNITED STATES DISTRICT JUDGE
Dated:

New York, New York
March 16, 2009

9

